<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-617]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-617

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.govinfo.gov 
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
36-421 PDF                WASHINGTON : 2019                 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director 
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 18, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     3
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     5
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     6
Rounds, Hon. Mike, U.S. Senator from the State of South Dakota...    12

                  LEGISLATION AND ADDITIONAL MATERIAL

Text of S. 1857, To establish a compliance deadline of May 15, 
  2023, for Step 2 emissions standards for new residential wood 
  heaters, new residential hydronic heaters, and forced-air 
  furnaces.......................................................    31
    Text of Carper Amendment #1, An amendment in the nature of a 
      substitute to S. 1857 that reduces the regulatory burden 
      for residential wood heater retailers and manufacturers, 
      codifies critical residential wood heater emission 
      standards, and establishes a $75 million voluntary program 
      to incentive the removal and replacement of old, 
      inefficient wood heaters...................................    33
Text of S. 2461, To allow for judicial review of certain final 
  rules relating to national emission standards for hazardous air 
  pollutants for brick and structural clay products or for clay 
  ceramics manufacturing before requiring compliance with the 
  rules by existing sources......................................    51
    Text of Whitehouse Amendment #1, An amendment to S. 2461, the 
      BRICK Act, that would convey the sense of Congress that the 
      EPA Assistant Administrator for the Office of Air and 
      Radiation should 1) abide by all relevant standards of 
      ethical conduct; 2) recuse himself from matters where his 
      involvement would result in or create the appearance of a 
      conflict or undermine public confidence in the EPA; and 3) 
      provide a copy of his recusal letter to the Committee......    55
    Text of an amendment in the nature of a substitute to S. 2461    56
Text of an amendment in the nature of a substitute to S. 2827, To 
  amend the Morris K. Udall and Stewart L. Udall Foundation Act..    58
Text of an amendment in the nature of a substitute to S. 1934, To 
  prevent catastrophic failure or shutdown of remote diesel power 
  engines due to emission control devices, and for other purposes    71
Text of S. 593, To amend the Pittman-Robertson Wildlife 
  Restoration Act to facilitate the establishment of additional 
  or expanded public target ranges in certain States.............    73
Presidential Nomination 2347. Harold B. Parker, of New Hampshire, 
  to be Federal Cochairperson of the Northern Border Regional 
  Commission, vice Mark Scarano, resigned........................    81
Committee Resolutions:
    Construction, Otay Mesa U.S. Land Port of Entry, San Diego, 
      CA. PCA-BSC-SA18...........................................    82
    Lease, Department of the Treasury--Internal Revenue Service, 
      Treasury Inspector General for Tax Administration, Denver, 
      CO. PCO-01-DE18............................................    83
    Lease, Drug Enforcement Administration, Weston, FL. PFL-04-
      WE18.......................................................    85
    Lease, Department of Defense--Army Corps of Engineers, 
      Sacramento, CA. PCA-01-SA18................................    87
Opinion: Mirrors and Smoke, Smoke and Mirrors, by John Crouch, 
  biomassmagazine.com, September 14, 2018........................    89
Letter to Senators Barrasso, Carper, Capito, and Whitehouse from 
  the Hearth, Patio & Barbecue Association, September 14, 2018...    91
Industry Groups Support New BRICK Act to Extend EPA Emissions 
  Regulations Timeline, ceramicindustry.com, March 28, 2018......    98

 
                            BUSINESS MEETING

                              ----------                              


                      TUESDAY, SEPTEMBER 18, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Shelby, Cardin, Whitehouse, Merkley, Gillibrand, Booker, and 
Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today we are going to consider six bills, four GSA 
resolutions, and one nomination.
    Senator Carper and I have agreed that we will begin voting 
at 10:15. At that time, I will call up the items on the agenda, 
including amendments for votes. We will not debate the items on 
the agenda while we are voting. Instead, we will debate the 
items on the agenda before we begin voting at 10:15.
    I will also be very happy to recognize any member who still 
wishes to speak after the voting concludes.
    The items on today's agenda include S. 1857, a bill to 
delay new source performance standards for wood and hydraulic 
heaters; S. 2461, Blocking Regulatory Interference from Closing 
Kilns Act of 2018; S. 2827, a bill to amend the Morris K. Udall 
and Stewart L. Udall Foundation Act; S. 1934, Alaska Remote 
Generator Reliability and Protection Act; S. 593, Target 
Practice and Marksmanship Training Support Act; S. 1537, 
Migratory Birds of the Americas Conservation Act; then, as 
well, Presidential Nomination 2347, which is Harold B. Parker 
of New Hampshire to be Federal Cochairperson of the Northern 
Border Regional Commission; and four General Service 
Administration resolutions.
    Now, it appears several members are present and would like 
to speak. In order to maximize everyone's time to debate the 
items on the agenda, I am going to defer any additional opening 
statements until other members have had the opportunity to 
speak. Members speak up until 10:15.
    I will submit my opening statements for the record.
    Senator Carper.
    [The prepared statement of Senator Barrasso was not 
received at time of print.]

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks.
    I have some comments I would like to give on my Amendment 
No. 1, which addresses S. 1857, Senator Capito's bill. Shelley 
and I were talking a little bit yesterday, and she indicated 
her staff hadn't received our amendment until a couple days 
ago, which I was just unhappy about. As it turns out, I talked 
with them, and they said, let's go back and look. Apparently, 
they said they met with your staff on July 25th, presented what 
we wanted to do on the 26th, and the actual language that came 
out tweaked it a little bit, but not too much. But the sum and 
substance of it was presented a couple months ago, which makes 
me feel better, because I don't like to give somebody something 
at the last minute. I just wanted to mention that.
    I still remember my staff preparing me for last year's 
November legislative hearing on S. 1857. They told me there are 
over 11 million homes using residential wood heaters today, 
most of which are inefficient and without proper emission 
control technology. Older wood heaters are inefficient, produce 
a deadly mix of particulate matter known as PM, volatile 
organic compounds, and air toxics.
    Pollution from these heaters is problematic in a number of 
States, including Alaska, Oregon, and Vermont, to name a few.
    I also learned that sometimes it is hard for homeowners to 
upgrade wood heaters on their own; they often need financial 
incentives to do so.
    Finally, I found out that the technology exists today to 
reduce the pollution from these wood heaters by up to 70 
percent. That is seven-zero percent. That is when I stopped my 
staff, and I said to them, I think we have seen this movie 
before and know it pretty well. Back in 2005, I remember George 
Voinovich, our colleague, came to me with almost the very same 
situation--not about wood burning stoves, but about inefficient 
diesel engines. In 2005, George said, we have a great idea, the 
Diesel Emission Reduction Act, and he asked me to be his 
Democratic cosponsor, which I was pleased to do.
    But DERA, as you all recall, didn't roll back emission 
standards for diesel engines. Instead, it created a program 
that incentivized the use of newer diesel technology. Together 
with Senator Inhofe and a couple of other colleagues, we went 
forth to establish one of the most successful clean air 
programs on the books. My statement here says one that is 
loved. I don't know that it is loved, but it is warmly embraced 
by retailers, by manufacturers, by States, and health groups 
alike.
    My amendment today builds on what we know to be a 
successful formula. Instead of delaying standards that many in 
the industry are already meeting and States depend on for 
healthy air, the amendment I am offering today creates a 5-
year, $75 million wood heater replacement program mirrored 
after our successful DERA program.
    What I am calling the Wood Heater Emission Reduction Act, 
or WHERA, allows States, it allows Tribes, it allows 
territories, and regional and local air agencies to apply for 
EPA funding to create residential wood heater programs that 
work for their State. Because rural areas and tribal areas have 
a disproportionate need, we require at least 4 percent of WHERA 
to go toward Tribes and require EPA to ensure that rural areas 
are represented in funding allocations.
    The amendment doesn't stop there, though. We heard during 
our hearing in November that retailers needed a little more 
time to get the older products off their shelves. Giving 
retailers some extra time is also beneficial to manufacturers. 
So, my amendment today gives retailers an extra year to sell 
these so called Step 1 residential wood heaters. Thus, it moves 
the deadline from May 20th, 2020, to May 20th, 2021, which is 
almost 3 years from now.
    This amendment also gives wood heater manufacturers some 
flexibility in the testing program.
    Finally, my amendment codifies the manufacturers' Step 2 
emission standards, keeping public health gains and giving 
States and manufacturers something they like, and that is 
certainty.
    As we saw with DERA, delaying emission standards is not a 
recipe for success, so let's adopt a formula that we know works 
for public health, for States, for American jobs.
    Mr. Chairman, I am going to be asking for a roll call vote 
on this amendment. I hope my colleagues will join me in 
supporting it today.
    Thank you so much.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Today, our Committee favorably reported S. 593, the Target 
Practice and Marksmanship Training Support Act, a bipartisan 
bill. Our Committee previously favorably reported a slightly 
different version of this legislation as part of S. 1514, the 
HELP for Wildlife Act.
    Ideally, our Committee would have considered and discussed 
those differences in a hearing. The stakeholder organizations 
that support the intended policy outcome support both versions. 
To date, no organizations have expressed public opposition to 
either version.
    That said, we may need to better reconcile these 
differences now that both bills--S. 593 and S. 1514--have 
advanced to the full Senate. I look forward to working with my 
colleagues to that end.

    Senator Barrasso. Thank you, Senator Carper.
    Senator Capito.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman.
    I thank the Ranking Member. Thanks for the conversation 
yesterday. It seems we have a little dispute on when the final 
language actually reached our staffs, but we can debate about 
that later.
    Senator Carper. I think the final language actually reached 
them a couple of days ago, but the sum and substance I think 
actually did come in July.
    Senator Capito. Right. Concepts were there. Like I said, we 
can get into that off the dais.
    I just want to urge support for S. 1857 to provide 
regulatory relief to the wood and pellet stove heater and 
forced air furnace industry. This is a bipartisan bill that was 
introduced with Senators McCaskill, Shelby, and Manchin. It is 
very simple: it extends that deadline from 2020 to 2023. That 
extension is vital to the industry to be able to develop, 
engineer, test, manufacture, and distribute models that are 
compliant with Step 2 standards. It also provides that 
certainty to retailers that they can sell existing inventories 
through 2023 and to consumers.
    The industry has already met the Step 1 standards, which, 
according to the Obama's EPA figures, achieved the vast 
majority--an estimated 90 percent or more--of the emissions 
reductions anticipated as part of the two-step regulation. Step 
1 reduced emissions by 70 to 90 percent compared to the 
baseline. With Step 2, we are subject to the law of diminishing 
returns, with each reduction becoming costlier and more 
technologically difficult to achieve.
    With that said, the bill would only delay--not modify--
would only delay the strict Step 2 standards to ensure they can 
be plausibly met on time.
    Members of this Committee have heard compelling testimony 
and received letters from industry that there is simply not 
enough time to fully engineer and certify. The certification 
part is very difficult in terms of certifying new products by 
the 2020 deadline. A 3-year delay would help alleviate logjams 
at the labs doing their certification and the EPA itself to 
ensure that the new models actually do meet the standards.
    The Clean Air and Nuclear Safety Subcommittee, which I 
chair, heard testimony last November. It is September. Last 
November we had a legislative hearing to the effect that some 
manufacturers may only have one-third of their product lines in 
limited quantities available for sale to comply with 2020.
    At the time of our hearing, of the 540 wood and pellet 
stove models that are compliant under Step 1, only 26 of those 
would meet the standard under Step 2. Retailers will be making 
their orders well ahead of the effective due date and will have 
to deal with the regulatory uncertainty of what will be 
available, as well as what will become of existing inventory 
that may become obsolete and unsellable.
    The purchase of these appliances is seasonal, so units may 
be in the retailers' inventory for years. The outcome may be 
that of the 11.5 million homes using wood heaters as primary or 
secondary heating sources will continue to operate their older 
appliances, which is what we don't want, many of them not even 
compliant with Step 1 for additional years while supplies 
increase and prices come down on Step 2 compliant units.
    We have already seen the rise in prices. A retailer in 
Prichard, West Virginia, had to double prices, from $1,000 to 
$2,000, for products compliant with Step 1 compared to previous 
revisions. In 2015, this retailer sold 42 warm air furnaces. In 
2016, Step 1 induced price increase, he sold 11. By late 2017, 
only 8. Which means people are not changing out their existing 
units. That means that, and they are not buying the new units. 
The impact for jobs and consumers is clear.
    So, I would urge my colleagues to vote yes on S. 1857.
    If the Chairman would allow, we still have a few minutes, 
to talk about the amendment.
    Senator Barrasso. Please. I know Senator Wicker wants to 
speak, as does Senator Whitehouse. Senator Whitehouse is first 
recognized, but go ahead.
    Senator Capito. I will go very quickly here on the Carper 
amendment that Senator Carper spoke about.
    We talked about the merits of it yesterday. Hopefully, we 
can arrive at some kind of compromise, but I don't think it is 
meeting the standards of regular order, so I urge its defeat.
    It would establish the $75 million new regulatory program 
with no budget offset and has not been completely vetted by 
members of this Committee. It would provide funding for buy 
backs, as the Senator said.
    While it is well intentioned, it does not address the 
broader issue associated with Step 2, and instead, formalizes 
them into law. It does not address the fact that there will not 
be enough models approved, much less at an affordable cost, to 
meet consumers' needs.
    A lot of the consumers that use it for their primary source 
are on the lower end of the economic scale, and that is a 
source of concern for me being from the State of West Virginia.
    So, I am opposing his amendment. I have other issues I 
could add here, but in the interest of the Committee I will cut 
that short and say that I hope we can work together, Senator 
Carper, to try to find a compromise here, but in the short term 
I would urge defeat of the Carper amendment.
    Thank you.
    Senator Barrasso. Thank you, Senator Capito. I also will be 
opposing the Carper amendment and supporting your bill.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman.
    Mr. Chairman, the Associate Administrator for the Office of 
Air and Radiation at the Environmental Protection Agency, as we 
know, is a gentleman named Bill Wehrum. He was confirmed by the 
U.S. Senate on November 9th, 2017. He promised to document his 
compliance with his EPA ethics agreement within 90 days of his 
confirmation. That 90 days ran on February 14th, 2018.
    Since that date, I have been trying to get his ethics 
statement, without success, in letter after letter, so I filed 
Whitehouse 1 as an amendment to S. 2461 to require recusal of 
this individual in matters where there would be the appearance 
of a conflict or undermining of public confidence in the EPA 
and requiring, as a matter of law, to provide a copy of his 
recusal letter to the Committee.
    Well, lordy be, as of now, we have his recusal letter. It 
was not signed on February 14th, 2018; it was signed yesterday. 
So, we at least have it. Further inquiry to follow as to what 
the hell happened between February 14th, 2018, and September 
17th, 2018, during which this individual, who is a walking 
conflict of interest, appeared to be operating under no 
conflict of interest or recusal statement.
    On the basis of that, I would first ask unanimous consent 
to put his recusal statement into the record.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Whitehouse. And second, ask consent to withdraw my 
amendment.
    Senator Barrasso. Without objection.
    Thank you, Senator Whitehouse.
    Senator Wicker.
    Senator Wicker. Well, I appreciate Senator Whitehouse 
withdrawing his amendment. That will simply give us an 
opportunity to vote yes or no on the underlying bill, which is 
a good bill, and it provides legislative and regulatory relief 
for the over 7,700 people who work in brick manufacturing 
plants and the almost 90,000 Americans who are employed by the 
larger brick industry, not to mention all of the millions of 
construction jobs with brick based elements.
    So, I am glad to see the amendment has been withdrawn, and 
I urge my colleagues to vote yes for the underlying bill, which 
is bipartisan, having sponsors such as Inhofe and Capito from 
this Committee and Donnelly, Heitkamp, and Manchin who are not 
on this Committee.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Wicker.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to also thank Senator Whitehouse for withdrawing his 
amendment, but also for his dogged determination to get members 
of the executive branch to do what they said they were going to 
do. If they told us they were going to file a recusal 
statement, and they haven't done it, then I think it is good 
oversight on his part to get them to do that, so appreciate the 
hard work of a former attorney general.
    Senator Whitehouse. Said the former attorney general.
    [Laughter.]
    Senator Barrasso. Senator Cardin, I know you also have a 
bill, the Migratory Birds of the Americas Conservation Act. 
Anything you would like to add at this point?

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Just thank the Chairman and Ranking Member 
for including this on the markup today. It is a very important 
bill that deals with our international efforts, the U.S. 
participating in neotropical birds.
    You have all heard me talk about this before. About 200 
species are involved in the protection of habitat in our region 
to make sure that we, with other countries, do what is 
necessary and reasonable to protect their habitat. One of those 
neotropical birds is the Baltimore Oriole. For those of you who 
are following the baseball season, you know we need to pass 
this immediately.
    [Laughter.]
    Senator Barrasso. We are waiting for one more member of the 
Committee to arrive.
    Senator Carper. Mr. Chairman.
    Senator Barrasso. Yes, Senator Carper.
    Senator Carper. Could I just have one last quick thing? 
Somebody asked me from the press yesterday, he said, why do you 
care about this wood burning stove legislation?
    I will just say this; in Delaware alone we have a number of 
wood heaters, and you have them in your States, too. We are not 
the leader by any stretch of the imagination, but wood heaters 
in my State are the second largest source of particulate matter 
pollution--second largest source of particulate matter 
pollution. If you add together all the PM that we get from on-
highway vehicles, electric utilities, petroleum industry 
combined, the particulate matter that comes from wood burning 
stoves in my State is more than all those three combined. All 
those three combined.
    Senator Barrasso. Thank you, Senator Carper.
    We are waiting for one more member to arrive. I understand 
he is on the way.
    Senator Inhofe. He is on the 14th Street Bridge.
    [Laughter.]
    Senator Barrasso. The Ranking Member and I have agreed to 
bring up two bills for separate votes. The Ranking Member has 
requested that each of these two receive a roll call vote. The 
Ranking Member and I have agreed to vote on the remaining four 
bills, the nomination, and the GSA resolutions en bloc by voice 
vote. Members may choose to have their votes recorded after the 
voice vote.
    So, I would like to bring up for call the en bloc passage 
of the items, the Barrasso substitute amendment to S. 2827, a 
bill to amend the Morris K. Udall and Stewart L. Udall 
Foundation Act; the Sullivan-Carper substitute amendment to S. 
1934, Alaska Remote Generator Reliability and Protection Act; 
S. 593, Target Practice and Marksmanship Training Support Act; 
S. 1537, Migratory Birds of the Americas Conservation Act; 
Presidential Nomination 2347, Harold B. Parker of New Hampshire 
to be Federal Cochairperson of the Northern Border Regional 
Commission; and four General Service Administration resolutions 
en bloc.
    I move to approve the Barrasso substitute amendment to S. 
2827 and report S. 2827 as amended, approve the Sullivan-Carper 
substitute amendment to S. 1934 and report S. 1934 as amended, 
approve and report S. 593 and S. 1537 and Presidential 
Nomination 2347, and approve four GSA resolutions en bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved S. 2827, as amended; S. 1934, as 
amended; S. 593; S. 1537; and Presidential Nomination 2347, 
which will be reported favorably to the Senate. We have also 
approved four GSA resolutions.
    Now I would like to call up S. 1857, a bill to delay new 
source performance standards for wood and hydraulic heaters 
that was circulated last Friday. Senator Carper has filed an 
amendment to S. 1857.
    You are going to offer your amendment, and then we will 
have a roll call.
    Senator Carper. I offer the amendment. We have discussed 
it, and I would ask for a yes vote.
    Thanks so much.
    Senator Barrasso. Members have already had an opportunity 
to speak on Carper No. 1 this morning. Additional members may 
speak, if they would like, after voting concludes.
    Move to vote on the amendment. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No. Oh, yes.
    Senator Carper. Thank you.
    The Clerk. Mr. Boozman.
    Senator Boozman. No.
    The Clerk. Mrs. Capito.
    Senator Capito. No.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mrs. Duckworth.
    Senator Carper. Aye, by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. No.
    The Clerk. Mrs. Fischer.
    Senator Fischer. No.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. Aye.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. No.
    The Clerk. Mr. Markey.
    Senator Carper. Aye, by proxy.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Moran.
    Senator Moran. No.
    The Clerk. Mr. Rounds.
    Senator Rounds. No.
    The Clerk. Mr. Sanders.
    Senator Carper. Aye, by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. No.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. No.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Wicker. No.
    The Clerk. Mr. Chairman.
    Senator Barrasso. No.
    The Clerk will report.
    The Clerk. Mr. Chairman, the nays are 11; the yeas are 10.
    Senator Barrasso. The yeas are 10; nays are 11. Carper No. 
1 is not agreed to.
    Now move to approve and report S. 1857 favorably to the 
Senate. Is there a second?
    Senator Inhofe. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mrs. Duckworth.
    Senator Carper. No, by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. No.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 10; the nays are 11.
    Senator Barrasso. This does pass.
    The ayes were 11?
    The Clerk. The yeas are 11; the nays were 10.
    Senator Barrasso. So, the motion, Senator Capito's bill, 
has passed.
    Next, I would like to call up S. 2461, the Blocking 
Regulatory Interference from Closing Kilns Act, the BRICK Act. 
It was circulated last Friday. An amendment has been withdrawn.
    I move to approve and report S. 2461 favorably to the 
Senate. Is there a second?
    Senator Wicker. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. No.
    The Clerk. Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mrs. Capito.
    Senator Capito. Yes.
    The Clerk. Mr. Cardin.
    Senator Cardin. No.
    The Clerk. Mr. Carper.
    Senator Carper. No.
    The Clerk. Mrs. Duckworth.
    Senator Carper. No, by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Merkley.
    Senator Merkley. No.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No, by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. No.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. No.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 11; the nays are 10.
    Senator Barrasso. The yeas are 11; the nays are 10. We have 
approved S. 2461, which will be reported favorably to the 
Senate.
    The voting part of this business meeting is finished. I 
would be happy to recognize any members who wish to make a 
statement on the legislation, the nomination, or the 
resolutions that we have just approved.
    Would any member like to be recognized? If not--yes, sir, 
Senator Carper.
    Senator Carper. Mr. Chairman, I want to take just a couple 
minutes, now that we have marked up today, to discuss some of 
the things that my Democratic colleagues and I sought to amend. 
As someone who always tries to look for the positive, we have a 
lot here that we have agreed on, and I am happy about that.
    I was happy to see that we could come to a compromise on 
Senator Sullivan's Alaska diesel bill. I think we addressed a 
real tactical issue for remote areas of Alaska, while also 
trying to find ways we can better improve energy reliability 
and air quality for those areas. I thank Senator Sullivan and 
want to thank the Chairman and their staffs for working with 
our staff on this issue. I think it is a good compromise.
    Additionally, I have advanced legislation to reauthorize 
the Neotropical Migratory Bird Conservation Act today, and I 
want to thank Senator Cardin for his leadership on this issue. 
I feel bad about the Orioles but good about his legislation. 
Neotropical migratory birds are special to both of our States; 
in fact, to many States. People travel to the First State of 
Delaware to observe the red knots, which benefit from the 
Neotropical Migratory Bird Conservation Act.
    Further, we have considered Senator Capito's Target 
Practice and Marksmanship Training Support Act. This 
legislation enjoys bipartisan support. It is endorsed by the 
sportsman community as well.
    I am also pleased that we were able to add the Udall 
Foundation reauthorization bill to our agenda today. It was 
last updated in 2004, but this reauthorization provides needed 
updates to the Foundation. One of the changes included in the 
substitute amendment would be to rename the U.S. Institute for 
Environmental Conflict Resolution in honor of our friend, the 
late Senator John McCain, which I believe is a great tribute. 
On behalf of all of our colleagues, I thank the Chairman for 
including this provision.
    We also considered today the nomination of Harold Parker to 
be the Federal Cochair of the Northern Border Regional 
Commission. We heard from the nominee at a Transportation and 
Infrastructure Subcommittee hearing 2 weeks ago. I am pleased 
to support his nomination.
    I mentioned this before, but it bears worth repeating. Old, 
inefficient residential wood heaters produce the heat that a 
lot of families need, but they also produce a deadly mix of air 
pollution that can trigger asthma attacks, cause lung damage, 
and create real problems for air quality. I mentioned this 
before.
    I was stunned when I saw this. In Delaware alone, 
residential wood heaters are the second largest source of 
particulate matter pollution, second largest source, 
contributing more than on-highway vehicles plus electric 
utilities and petroleum industries combined. Think about that. 
Think about that.
    A 3-year delay in the standards that manufacturers are 
already meeting today just doesn't make sense to me, and I 
think we can do better. I presented another option in Carper 
Amendment No. 1. Without these changes, I could not support 
Senator Capito's bill.
    Second, we have Senator Wicker's bill, the BRICK Act, S. 
2461. This legislation delays air toxic Clean Air Act standards 
for the brick industry by 2 years. These are standards that 
should have been in place almost two decades ago, and EPA has 
already stated they are going to give the industry an extra 
year to comply. I have concerns about the public health 
implications of delaying standards even further, which is why I 
voted no on that bill.
    But Mr. Chairman, as you know, I am always pleased to work 
together with you and our colleagues whenever we can do so. As 
a result, we have made progress on a number of different fronts 
today. My thanks to everyone--our members and staffs alike--
whose efforts helped make all that progress possible.
    On the other issues on which we disagree, we live to fight 
another day, or maybe to find consensus. We will see.
    Senator Barrasso. Thank you, Senator Carper.
    I do ask unanimous consent that the staff have authority to 
make technical and conforming changes to each of the matters 
approved today.
    Senator Rounds.

            OPENING STATEMENT OF HON. MIKE ROUNDS, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Chairman, we have a pending nominee, Mr. Peter Wright, 
for Assistant Administrator of the EPA's Office of Land and 
Emergency Management. As you know, I chair the Environment and 
Public Works Subcommittee on Superfund, Waste Management, and 
Regulatory Oversight.
    In December 2017, we held a hearing on the challenges 
facing Superfund sites following natural disasters such as 
hurricanes. One of those challenges should not be a lack of 
personnel on hand to mitigate environmental damage. Yet even as 
we deal with the aftermath of Hurricane Florence, the Assistant 
Administrator of the EPA's Office of Land and Emergency 
Management, Peter Wright, has yet to be confirmed by the 
Senate.
    Now, I understand that by my request I am not asking that 
we swiftly confirm him, but I would ask that we perhaps take up 
this matter in a more expeditious manner and confirm Mr. Wright 
so that our Federal Government can more effectively deal with 
the environmental impacts of natural disasters.
    Senator Barrasso. Thank you, Senator Rounds. I would like 
to agree. When you take a look at North Carolina, South 
Carolina, the catastrophic flooding over the last several days, 
Hurricane Florence has taken a tremendous toll in terms of 
human lives, as well as billions of dollars in damage.
    In the midst of this suffering, the EPA has been without 
this Assistant Administrator for Land and Emergency Management, 
the Subcommittee which you chair. This is the official who is 
in charge of EPA's response to inland oil spills, chemical, 
biological, radiological releases, national emergencies, 
including hurricanes.
    The President nominated Peter Wright March 6th of this 
year, so it has been 195 days. He was cleared from this 
Committee, certainly, but the Senate Democrats have blocked the 
nomination. In fact, he has had to wait longer than any of his 
predecessors in the last 20 years.
    So, I agree it is time for the Democrats in the Senate to 
move and stop the blockage so we can get confirmation of Mr. 
Wright as soon as possible.
    If there are no other Senators who wish to speak?
    Senator Carper. I have a couple of unanimous consent 
requests, Mr. Chairman.
    Senator Barrasso. Senator Carper.
    Senator Carper. I want to ask unanimous consent to submit 
for the record a letter from environmental groups that are 
opposed to Senator Wicker's S. 2461, which would extend the 
compliance date for air toxic standards for the brick industry. 
That would be one UC request.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Carper. A second UC request, I would like to ask 
unanimous consent to submit for the record letters from 23 
environmental health and State agency groups that are opposed 
to Senator Capito's wood heater legislation, S. 1857.
    Senator Barrasso. Without objection.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Carper. And one more. I ask unanimous consent to 
enter into the record supplemental materials regarding the 
legislation we have advanced today.
    Senator Barrasso. Without objection.
    Senator Carper. Thank you so much.
    [The referenced information follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Barrasso. In closing, I am going to enter into the 
record a letter of support of S. 1857 from the Hearth and Home 
Technologies. By giving the industry a compliance extension, 
the letter says, S. 1857 would provide critical relief.
    [The referenced information follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. With that, our business meeting is 
concluded, and we are adjourned.
    [Whereupon, at 10:33 a.m. the Committee was adjourned.]
    [Text of legislation and additional material follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                 [all]
</pre></body></html>
